                U.S.DEPARTMENTO~              CQMMERCE ':~{(~
                         Office of Inspector General                \~i
                                                 '.




                                                           PUBL\C            "




                                                           RELEASE


                    ECONOMIC DEVELOPMENT
                          'ADMINISTRATION

                                    ,Panhandle Area Council
                                                      Hayden, Idaho
                            '.            Revolving Loan Fund
                        EDA Grant No. 07-39-02500.03


                       AuditReport No. STL-14141-1-0001/July 2001




                                 Office of Audits, Seattle Regional Office




'.'..,"-.'"-.
    "




        u.s. Department of Commerce                                                                            Report No. STL-1414I-I-0001

        OffICeof InsDectorGeneral                                                                                                  .        Julv 2001


                                                                 CONTENTS




        EXECUTIVE SUMMARY.                    . . . . . . . . . . . . . ',' . . . . . . . .'. . . . . . . . . . . . . . . . . . . . . . . . . . . . ..
   i


        INTRODUCTION.              .. ............         "   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


        PURPOSE AND SCOPE OF AUDIT. . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


        FINDINGS       AND RECOMMENDATIONS.                              . . . . , . . .. . . ~ . . . . . ; .. . . . . . . . . . . . . . . . . . . . : 3


                 RLF RECAPITALIZATION WAS NOT USED.                                         . , . . . . . . . . . . . . . . . . . . . . . . . . . , . . 3


                 RECOMMENDATIONS. . . . . . . . . . . . . . . . . . . . . . '; ',' . . . . " . . . . . . . . . . . . . . . . . . . 5
             ~




                 FUNDS PUTTOBEITERUSE. . .. . . . . . . . . . . . . . .,. . . . . . . . . . . . . . .'. . . . . . . . '. . . 5


                 RECIPIENT'S RESPONSE.                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


                 OIG COMMENTS.              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .'. . . . . . .'. . . . . . . . . . 6


        Appendix A. Recipient's Response





,         ,
u.s. Department of Commerce                                      Report No. STL-14141-1-0001
OffICeof InSDectorGeneral                                                           JulJ!.2001

                                EXECUTIVE SUMMARY


The Economic DevelopmentAdministrationawarded.grantNo. 07-39-02500.03to the.Panhandle
Area'Council in June 1998in the amountof $350,000to recapitalizea revolvingloan fund
originally awardedin 1982. We found that the.Councildid not utilize the EDA RLF duringthe:
period of recapitalization.Many of the loan applicationsprocessedby the Council duringthis
period qualified for financiIigunder severalother loan programs,and the Council op~edto use
the other loan programs insteadof the EDA ELF. Consequently,no loanswere fundedby the
EDARLF since January 1998,and there is littleprospectof using the recapitalizedfundsbefore
the expirationof the grantdisbursement:schedulein June 200L

The existing RLF had a cash balance of over $661,000at September30,2000, and thereforehad
sufficient fundsto meet currentloan demands. Therefore,we recommendthat EDA terminate
the recapitalizationaward and deobligatethe $350,000balance. We also recommendthat EDA
monitor the existingRLF to ensurethat the fund is servingits intendedpurpose.




                                             1

                                                                                                         ..   u .....-_..




.'   '.





      us. Department of Commerce                                         Report No. STL-14141-1-0001
      OffICe of InsDector General                                                           Julr..2001

                                              INTRODUCTION


      The PanhandleArea Councilwas organizedin 1972to promote economicdevelopmentand
      business growth in the five countiesof NorthernIdaho.The Councilprovides low mterest loans,
      business counseling,incubators,andjob trainingassistancefor the private sector,and provides'
      economic developmentplanning,procurementassistance,andgrimt writing.andadmini.strative.
      assistance for local governmentsin the servicearea. Memb~'ofthe Councilconsis1;of elected'
      officials fromNorth Idaho cities and counties,the Coeur d'Aleneand KootenaiIndian Tribes,
      and business leaders from the five-countyarea.                     .

      The EDA revoiving loan fund was originallyawaidedto the PanhandleArea Council in           .

      September 1982. EDA recapitalized the award three times, in September 1984, August 1987,
      and June 1998, as shown in Table 1:                           .



               Table 1. EDA Grant Award & Amendments
                Actions              Period        EDA        PAC        Total

                Original Award       Sept. 1982   $350,000     --        $350,000
                Amendment #1         Sept. 1984    300.000 $350.000       650.000
                          Subtotal                $650,000 $350,000 $1,000,000
                Amendment #2 Aug. 1987             150.000    50.000      200.000
                        Subtotal                  $800,000 $400,000.' $1,200,000
                Amendment #3 June 1998             350.000    116.000     466.000
                           Totals                            $516.000 $1.666.000

      The audit was limited to the last Amendment(No.3), awardedby EDA in June 1998under
      award No. 07-39-02500.03to.recapitalizethe existingRLF. The award was selectedfor audit
      because EDA records showedthat therewereno.drawdownsfrom the grant through2000.

      The Panh~dle Area Councilacquiredand operatedfive other loan programs since 1982. They
      include: i) another RLF for the five-countyservicearea, originallycapitalizedwith Department
      of Housing and'UrbanDevelopmentCDBGfunds fromthe state, and now funded from local
      sources; only; ii) anotherEDA RLF limitedto ShoshoneCounty,originally awardedto another
      grantee and transferredto the Councilin 1987; ill) the SmallJ,3usinessAdministration504 loan
      program for fixed assets; iv) the SBAMicro-loanprogram;and v) the Departmentof
      Agriculture's Rural Development-IntennediaryRelendirig-Program.
                                                                                                                        ,    .,'",...




             ",




                  U.S. Department of Commerce                                               Report No. STL-14141-1-0001
                  Office of Insoector General                                                                  July"2001 .

                                                PURPOSE AND SCOPE OF AUDIT


                  This report presents the results of a financialrelated auditof the EDA awardto the Panhandle
                  Area Councilfor administrationof the RLF. Financialrelatedaudits assess compliancewith
                  laws, regulations, and award terms;adequacyof accountingsystems and intem'aIcontrols;and
                  the degreeto which a project achievedthe intendedresults. The auditdid not include a review of
                  costs incurred.         .        .      .    '.                  .




                  The objectivesof our audit were to (1) identifythe reasonsfor the delay in disbursingaward
                  funds, and (2) determinewhetherthe need for .therecapitalizationwas valid The audit covered
                  the period betWeenthe recapita1izationinJune 1998and September30,2000. We conductedsite
                  work in February 2001; we examinedproject recordsand interviewedofficials.

                  We reviewedthe audit reports issuedby the Council'sindependentauditorsunder the Single
                  Audit Actior the period ended September30,2000. . The independent auditors gave clean
                  opinions on the Council's financialstatements,and found no reportabledeficiencieswith regard
                  to the Council's internal controlsor compliancewith federallyfunc;ledprograms.

                  Wedid not rely on the other independent reviews of the Council's operations, ,but instead
                  satisfied our audit objectives with tests of project transactions related to the EDAproject to
                  evaluate internal controls, compliance with laws and regulations, and reliability of computer-
                  generated data. We did not find any deficiencies that impacted on the audit objectives or our
                  conclusionsregardingthe EDA project.                     .            .




                  The audit was conducted in accordance with Government Auditing Standards issued by the .
                  Comptroller General of the United States, and was perfo~ed under the authority of the
                  Inspector General Act of 1978, as amended, and Department Organization Order 10-13 dated
                  May 22, 1980, as amended.




                                                                   2




.',", ..'"                     .. ..',. ,
                                                                                                                     ..   .....




u.s. Department of Commerce                                                            Report No. STL-UUI-I-OOOI
OffICeof Inspector General                                                                              Julr..2001

                             FINDINGS AND RECOMMENDATIONS


RLF RECAPITALIZATION                 WAS NOT USED

We .foundthat the Councildid not utilizethe EDA RLF duringthe period of the recapitalization
award. Many of the loan applica~onsprocessedby the Councilqualifiedfor financingunder
several other loan programs administeredby the Council,and the Councilopted to -qsethe other .
loan programs rather than the EDA revolvingloan fund. . Consequently,no loans were fundedby
the EDA RLF since the fund was recapitalizedin i998. Thereis littleprospect of using those
funds before the expirationof the grant disbursementschedulem June 2001. Therefore,we
recommendthat EDA deobligatethe recapitalizationgrant.

The PanhandleArea Council acquiredfive other loan programsafter the EDARLF was startedin
1982, as shown in Table 2:

       Table 2. Panhandle Area Council Loan Proerams                      .


                                                          Loans Made Throu~h 9/30/00
       Year      Aencv         Loan Proram                No.         Federal      Total Loans
        1982     EDA           RLF                         42       $3,343,100     $10,352,800
       1983      ffiJD 1       RLF (Local)                 34                 --           1,978,000
        1984     SBA           504 program                 50       11,851,000         48,854,300
        1987     EDA2          RLF (Shoshone)              22         550,000          .   1,712,400
        1993    'SBA3          Micro-loans                 53         531,900               531,900
       1995 USDA 4 RDIRP                        9       842,000        842,000
Notes:
-r-    OriginallycapitalizedwithHUDCDBGfundsto State;butno longerhasFederalidentity.
       All funding is now from non-federalsources.                                 .


  2
       Limited to Shoshone County. The RLF was originally awarded to another recipient in
       Sh?shone Gounty in 1982, and RLF custody was later.transferred to the Council in 1987.
  3                                                  .          .
       SBA Micro-loans are smalllo<l..ns(]JJlder$25,000) targeted to small J>usinesses.
       They do not compete Wftlilhe. KLF loans.
  4
       U.S. Department of Agriculture's Rural Development-Intermediaiy Relending Program.




                                                           3





                                ... ... ... ..........

          --     nn    ---   --   - ---   ­

                                                                                                     -- --   -- ". ,"',




    u.s. Department of Commerce                                             Report No. Sn-UUI-I-OOOI
    Office of InsDector General                                                           ,   Jul12001

    The Council presented several reasons for using the other loan programs in preference to the
    EDA RtF. For example, construction loans with Davis-Bacon wage scale requirements cannot
    be marketed easily in Idaho because local banks and contractors will often refuse to participate in
    projects with union wage scale requirements. Other loan programs do not have wage scale
    requirements, and therefore construction
                                  .'	
                                             loan,packaging
                                                      .
                                                            efforts are easier under the other
    programs.

    Council records indicatedthat the SBA 504 programwas the loanprogramused mo~t
.   Consistentlyoverthe years. AsshownonTable3, duririgtheperiodoftheEDARLFapplication
    and award process in 1997-1998the Councilprocessedalmostall loans throughthe SBA 504
    program (11loans for about$4,000,000),without using the other loan programs. Therefore,
    while there may have beenvalid economicreasonsto justify the EDA RLF applicationin 1997,
    there was not a demonstratedneed for the recapitalizationas measuredby market demandor,
    actual loans processed.

    As of September 30,2000 theEDA RLF cash balancewas over $661,000. The recapitalization
    awardin 1998authorizedtheCouncilto retainup to $300,000in principlerepaymentsITom.
    earlier RLF loans in order to have sufficientfunds on hand to make loans in areas not eligible
    under the recapitalization. (SpecialAwardConditionN.) In the absenceof any new loans
    made, the RLF balance has doubledthe amountauthorizedin 1998.

    Therefore, the eXistingRLF is sufficientlycapitalizedto meet future loan demands. Sincethe
    recapitalizationaward of 1998has not been used we believethat EDA should,deobligatethat
    award, and monitor the existingRLF balanceto 'ensurethat the fund will be used to its intended
    potential.

-   RECOMMENDATIONS

    We ~ecommend that EDAiS Seattle Regional Director:

    1)	        Terminate the $350,000 recapitalization grant awarded to the Panhandle Area Council in

               June 1998 and deobligatethe balance.                             -    ­


    2)	        Monitor the existingRLF toensuret4at the fund is properlyutilized by the Council.
    FUNDS PUT TO BETTER USE

    Implem~nting the first recommendation will allow $350,000 in grant funds to be put to better

    use.





                                                      5
                                                                          n           O-       ------­




u.s. Departinent of Commerce                                           Report No. STL-14141-1-0001
Office of InsDectorGeneral                                                                JulE. 20001

RECIPIENT'S RESPONSE

The Council agreed with the information in the draft report, but posited two reasons to retain the
EDARLF as awarded. First, the recent 2000 census will remove Kootenai County from the
USDA loan program service area (because of population limitations in theRD-IRP program).
And second, the COUJ1cilhas approved two loans totaling $485,000 since the audit in February,
and both loans will be made out of the EDA RLF by July 2001. The Council's response (without
loan write-up detail)is attached as AppendixA.                                             0




OIGCOMMENTS

Our concern remains that the RLF ISutilized at an optimum Capacity; The two loans approved
sfuce the audit help in that regard, but all loans must be made out of the original RLF balance
before the recapitalization award is used. Based on the original RLF balance in Septei11ber2000,
the total RLF available is still over $642,000 (which includes the September 2000 balance of
$661,000, the recapitalization award available of$466,000, minus °thecurrent loans approved of
$485,000).                                                                                      0




In addition, it remains to be seenwhether the EDA_RLFactivitywill increaseas claimed by the
Council. The Council's response(1) indicatedthat the $135,000loan was alreadyearmarkedto
another loan funding sourcebefore it was shiftedto theEDA RLF in May; and (2) did not
provide clear informationthat theo$350,000loan was being awardedfrom the EDARLF or the
Regional RLF, which is funded from localsources. Also, the eliminationof Kootenai County
from the USDA loan programmay not have an impacton EDA-fundedloans, since the Council
has been using the SBA 504 programin preferenceto both the EDA and USDA loan programs.

For all of these reasons, Wereaffirmthe recommendationsmade in the draft report, since the
Council has not demonstrateda need for the additionalfunds,both because of the adequacyof
the original RLF amount and the existenceof other loan funds availablefor the same purpose.




                                                 6

   --.   ~(~.

                                                                                                           .Appendix           A
                                                                                                               Fc;ige J:of         3.




                                                                                     P~ C
 0-""---"                     -."":.                                                 .         .           .             ",         ""'"                  '.


                                                                                    ..'>.                               .     "
           PANHANDLE

                                                                                         .'   '.   .   .   .             '.                :AREA'


11100            ,..D"ve . Hayden,ID83835-9743     . 2<NIf772.0584. FAX208I71U196                                                           COUNCIL

                                                                                                                                           ,Council   of G<JI/9I'M'oenlS


                                                                                                                                           Certified D6vefopmenl
                                                                                                                                           -Company ,                      '
                           June 6, 2001
                                                                                                                                           , GOIIemment        Procurement

                                                                                                                                            International Trade
                                                                                                                                            Associaie Office

                           Ray Mcintosh. RegionalInspectorGeneral                                                                           p~        IndustryCouncIl
                           Office of InspectorGeneral ' ' .                                                                                 BusinessIncubatorCenter
                           United 'StatesDepartmentof Commerce
                           915 SecondAvenue, Room 3062
                   ,       Seattle, Washington 98174


                           RE: Draft Audit Report # S'fL..14141-1-xxxxconcerningPanhandleArea Council

                               EDA Award #'07-39-02500.03


                           Dear Mr. McIntosh.

                     We agree with the informationin the draft repoi:t',In an effortto accommodateour
                       ,



                   .clients we have-attimes found.otherloari.'programs.tobe.-a:hetter  fit.. However;we

                     will not be able to use our USp.f.\.loanprogram,in-Kootenai'County)beCauseofthe ,

                                                                             a
                     new census, therefore ourEDAIRLF pool will be very importantfundingsourcein

                           the near future.                    .



                           Since the audit we have approved and committed to fwiding 2 projects involving our
                       ,   Revolving Loan Fund. Both of these projects Willbe funded 1>eforemidJuly. We

                           will disburse $350,000to Norm's Utility Contractor's and fund $135,000to the Idaho

                           Fish and Wildlife Foundation.


                         We intendtouse the $350,000mentionedin the audit forNorm's. Hopefully'thiswill
                         be acceptableto you. I have attachedtheP AC Boardminutes approvingthe funding
                       . and a brief descriptionof the project.                "




                           Please contactnie at 208-772-0584x 3005 for any additionalinformationor
                           questions.




                                ce. A. Leonard Smith.RegionalDirector,EDA, Seattle
ATTACHMENTS NOT INCLUDED





                            .

